                                                              %




                               A-.rIONAL SCIENCE FOUNDATION   ;


                                  WASHINGTON, D.C. 20550




       O f f i c e of
    Insuector General



     MEMORANDUM

               DATE: September 24, 1991
_      REPLY_.-T-0
        ATTN OF: Special Agent
         SUBJECT: Closeout report Case No. 19&l2666
                                                                     .   .
                    TO: File
      In February. 1991, the Investiaations Unit was notified of an
                                                                 -- -




                                                                             rtment of
                                                                             said that

      accountants for the                                         I then contacted




     On April 26, 1991,                  pled guilty to Grand Larceny
     in the Second Degre                 Court:
                                         ,'
                                                County of Westchester.
     State of New ~ o r k . On June 26,            a s sentenced to 2-6
     years in State of New York Prison and or er d to
     of $1,263,665 to the
     pled guilty to Gran
     sentenced to 90 days in jail and 5 years probation, and ordered
     to pay restitution in the amount of $300,000.
     guilty to Grand Larceny in the 4th degree, and
     years probation, 200 hours of community service, and ordered to
pay restitution in the amount of $90,000.
All matters peratining to this case have been resolved and this
file is accordingly closed.
